In The
SUPREME COURT OF THE UNITED STATES

EDWARD RONNY ARNOLD, PRO SE,
Petitioner,
v.
HERBERT SLATERY, III,
TENNESSEE ATTORNEY GENERAL AND REPORTER,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

CERTIFICATE OF SERVICE
I, Edward Ronny Arnold, Pro Se, certify that on this 1 day^f May 2020, three copies
of the Petition for Writ of Certiorari were served by certified return receipt mail
upon counsel for Respondent as required by Tenn. R. Civ. P. 4.04 (6) and ORDER
LIST: 589 U.S. issued Wednesday, April 15, 2020.
Tenn. R. Civ. P. 4.04 (6) requires the Respondent to be served through the State of
Tennessee Attorney General and Reporter, Herbert Slatery, III.
Counsel for Respondent
Herbert Slatery, III
State of Tennessee Attorney General and Reporter
Rachel Jackson Building
320 6th Avenue North
Nashville, Tennessee 37245

Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044
Pro Se Litigant
Dated: May 1, 2020
/

In The
SUPREME COURT OF THE UNITED STATES

EDWARD RONNY ARNOLD, PRO SE,
Petitioner,
v.
HERBERT SLATERY, III,
TENNESSEE ATTORNEY GENERAL AND REPORTER,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

UNSWORN DECLARATION UNDER PENALTY OF PERJURY
As per 28 U.S. Code ยง 1746, Unsworn declarations under penalty of perjury,
I, Edward Ronny Arnold, declare under penalty of perjury that the foregoing
Writ of Certiorari in the Supreme Court of the United States, in the case of
Edward Ronny Arnold v. Herbert Slatery III, State of Tennessee Attorney
General and Reporter No. 19-5509 is true and correct.

Executed on May 1, 2020.

.

%

Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044
Pro Se Litigant
Dated: May 1, 2020

